Appellate Case: 19-12

Document: 010110294302

Dak

ed: 01/24/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

January 24, 2020
Christopher M. Wolpert
Clerk of Court

DELMART E.J.M. VREELAND, II,
Petitioner - Appellant,
v.

DAVID ZUPAN; THE ATTORNEY
GENERAL OF THE STATE OF
COLORADO,

No. 19-1244
(D.C.No. 1:14-CV-02175-PAB)
(D. Colo.)

» Respondents - Appellees.
ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before HARTZ, MORITZ, and CARSON, Circuit Judges.
Delmart Vreeland II, a Colorado prisoner proceeding pro se, seeks to appeal the
district court’s denial of his “Motion to Resolve Claim of Hostility and Bias Against
Petitioner by Chief Judge Philip A. Brimmer” (Bias Motion), and his “Motion for Relief
from Judgment and Orders Pursuant to Federal Rules of Civil Procedure Rule 60(b) and
(d)” (Rule 60 Motion). We deny a certificate of appealability (COA) and dismiss this
proceeding.

This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 19-12

Document: 010110294302

Dak

ad: 01/24/2020

Page: 2

BACKGROUND
A Colorado jury convicted Mr. Vreeland of offenses including sexual exploitation
of a child, sexual assault, and contributing to the delinquency of a minor. After
unsuccessfully seeking relief from his conviction in the Colorado courts he pursued a
federal habeas application under 28 U.S.C. § 2254. The district court denied his
application. We affirmed the denial and denied his request for an expanded COA.
Vreeland v. Zupan, 906 F.3d 866, 883 (10th Cir. 2018), cert, denied, 139 S. Ct. 1586
(2019).
Mr. Vreeland then filed the two motions at issue in this appeal. In his
Bias Motion, he asserted that the lawyers who had represented him in his habeas
application and appeal told him “that Judge Brimmer hates Vreeland and all Vreeland’s
constant litigation clog[g]ing up his docket, is openly hostile toward anything Vreeland
submits or associated with Vreeland, and will never grant a fair ruling or any form of
hearing on anything filed on behalf of Vreeland.” R., Vol. 4 at 688. Vreeland offered
two explanations for these statements: either his attorneys were attempting to cover up
their own “gross negligence or deception,” or Judge Brimmer was in fact biased and
“hates Vreeland and his litigation.” Id. at 690; see id. at 691. He asked the district court
to “address and resolve this matter in the way the Court deems necessary.” Id.
The district court denied the motion. To the extent Mr. Vreeland attempted “to
raise a claim against his attorneys for any negligence and deception,” the court reasoned,
“‘[t]he ineffectiveness or incompetence of counsel during ... postconviction proceedings
shall not be a ground for relief in a proceeding arising under section 2254.”’ Id. at
2

Appellate Case: 19-12

Document: 010110294302

Date

ad: 01/24/2020

Page: 3

874-75 (quoting 28 U.S.C. § 2254(i)). To the extent Vreeland alleged that Judge
Brimmer was biased or prejudiced against him, he had failed to “submit a timely and
sufficient affidavit of personal bias and prejudice.” Id. at 875.
In his Rule 60 Motion, Vreeland asserted “that the integrity of the habeas corpus
proceedings were corrupted by acts of [his counsel and the state’s counsel] during the
habeas corpus process.” Id. at 698. He claimed his attorneys assured him that they had
reviewed the entire record and that they had found no physical evidence relevant to his
claims. But unbeknownst to him, he claimed, the state’s counsel had failed to produce
“the entire trial record and all physical evidences” as ordered, id. at 702, and counsel
“had deceived Vreeland when they stated they had reviewed the trial court records,” id. at
707. He further complained that due to the state’s non-compliance and his own
attorneys’ negligence, the district court “simply re-quot[ed] the trial and [Colorado Court
of Appeals] written opinions .. . without ever looking at [relevant physical evidence]”
that would have exonerated him, id. at 717, and “entered judgment without first
reviewing the evidence favorable to Vreeland,” id. at 724. Vreeland asserted this court’s
decision-making process in his habeas appeal was corrupted for similar reasons.
The district court determined the Rule 60 Motion was actually an unauthorized
second or successive habeas corpus application and dismissed it for lack of jurisdiction.
See 28 U.S.C. § 2244(b)(3) (requiring petitioner to obtain prior circuit authorization
before filing a second or successive § 2254 application in district court). The court
further reasoned that even if the Rule 60 Motion was a “true” Rule 60(b) motion that did
not require prior authorization, the motion should be denied, for two reasons:
3

Appellate Case: 19-12

Document 010110294302

Dak

ad: 01/24/2020

Page: 4

(1) Vreeland had not shown “extraordinary circumstances” warranting Rule 60(b) relief,
and (2) the motion was untimely.
After Vreeland filed his notice of appeal, we partially remanded to the district
court to determine whether to issue a COA. The district court denied a COA.
Mr. Vreeland now seeks a COA from this court.
DISCUSSION
To obtain a COA, Mr. Vreeland must make a “substantial showing of the denial of
a constitutional right.” 28 U.S.C. § 2253(c)(2). When a district court rejects a claim on
the merits, the habeas petitioner must demonstrate “that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000). But when a district court has dismissed a claim on
procedural grounds he must show that reasonable jurists could debate both the validity of
the court’s ruling on the constitutional claim and the correctness of the court’s procedural
ruling. See id.
In reviewing a motion under Fed. R. Civ. P. 60(b) seeking relief from an order
denying a habeas petition, the courts must determine the nature of the motion by
examining the relief sought. A Rule 60(b) motion that “in substance or effect asserts or
reasserts a federal basis for relief from the petitioner’s underlying conviction” is a
second-or-successive application that requires authorization from this court before it can
proceed. Spitznas v. Boone, 464 F.3d 1213, 1216 (10th Cir. 2006) (applying
authorization requirement to Rule 60(b) motions that “assert or reassert a federal basis for
relief from [an] underlying conviction”). But a motion is a “true” Rule 60(b) motion, not
4

Appellate Case: 19-12

Document: 010110294302

Dak

.ed: 01/24/2020

Page: 5

a second-or-successive application, “if it either (1) challenges only a procedural ruling of
the habeas court which precluded a merits determination of the habeas application; or
(2) challenges a defect in the integrity of the federal habeas proceeding, provided that
such a challenge does not itself lead inextricably to a merits-based attack on the
disposition of a prior habeas petition.” Id. at 1215-16 (citations omitted).
I. Bias Motion
As part of his argument that the Bias Motion should have been resolved
differently, Mr. Vreeland contends Judge Brimmer should recuse himself from this case
and from all cases to which Mr. Vreeland is a party. See COA Appl. at 28. An order
denying recusal is a collateral order that does not require a COA for appeal. See
Harbison v. Bell, 556 U.S. 180, 183 (2009) (The COA requirement applies only to “final
orders that dispose of the merits of a habeas corpus proceeding.”). We therefore deny a
COA on the recusal issue as unnecessary.

i

Mr. Vreeland’s motion also cited “fraud on the court” under Rule 60(d). A
fraud-on-the-court claim is second or successive “if it in substance or effect asserts or
reasserts a federal basis for relief from the petitioner’s underlying conviction.” Spitznas,
464 F.3d at 1215; see also United States v. Baker, 718 F.3d 1204, 1207 (10th Cir. 2013)
(explaining that a fraud-on-the court claim may be brought either as an independent
action under Rule 60(d)(3) or as a motion under Rule 60(b)(3), but the label does not
change the analysis used to determine whether it is an unauthorized second or successive
petition). Mr. Vreeland’s assertions that the state’s counsel failed to produce the entire
state-court record, and that his attorneys failed to cite to it, fall short of alleging a “fraud”
on the habeas court. See Thomas v. Parker, 609 F.3d 1114, 1120 (10th Cir. 2010)
(rejecting claim that submission of incomplete and incorrect grievance paperwork by
prison officials amounted to fraud on the court).
5

Appellate Case: 19-12

Document: 010110294302

Dak

.ed: 01/24/2020

Page: 6

Turning to the merits, we review the denial of a recusal motion for an abuse of
discretion. See United States v. Wells, 873 F.3d 1241, 1250 (10th Cir. 2017). For the
reasons stated by the district court, Judge Brimmer did not abuse his discretion in
declining to recuse himself from this case. We therefore affirm the denial of recusal.
In the same motion, Mr. Vreeland also suggests his attorneys either made false
statements about Judge Brimmer’s bias to conceal their own deceptive conduct in his
habeas case, or, if the statements were true, failed to protect him from Judge Brimmer’s
bias. See COA Appl. at 21. We will assume this portion of his claim attempts to attack
the integrity of the habeas corpus proceedings and was therefore not subject to dismissal
as an unauthorized second or successive habeas claim. But this claim still requires a
COA in order to proceed. See Spitznas, 464 F.3d at 1217-18. Mr. Vreeland argues the
district court erred in relying on 28 U.S.C. § 2254(i) to bar this claim because his
attorneys acted with “gross negligence and deception” rather than mere “ineffectiveness
or incompetence.” COA Appl. at 22 (internal quotation marks omitted). But he fails to
show that the district court’s basis for denying the claim—that an attack on his attorneys’
performance concerning Judge Brimmer’s alleged bias was not cognizable in habeas
proceedings—was reasonably debatable. We therefore deny a COA concerning this
claim.
II. Rule 60 Motion
Mr. Vreeland fails to show a debatable issue concerning the district court’s denial
of his Rule 60 Motion. In his motion Mr. Vreeland claimed that had his habeas counsel
reviewed the entire record (as they said they did) they would have realized that (1) police
6

Appellate Case: 19-12

Document: 010110294302

Dak

ad: 01/24/2020

Page: 7

recordings of conversations between himself and his trial counsel revealed that trial
counsel withdrew because of their own misconduct rather than his unreasonable behavior,
making it unconstitutional to compel Mr. Vreeland to proceed pro se at trial; (2) there
were unconstitutional defects in the trial proceedings; and (3) he was innocent of the
offenses charged against him. He further argues that counsel should have made these
arguments, based on the entire record. Even assuming these allegations could survive the
§ 2254(i) bar, they represent attempts to reassert claims for relief and the district court’s
determination that they are second or successive is not reasonably debatable. See
Gonzalez v. Crosby, 545 U.S. 524, 532 n.5 (2005) (“[A]n attack based on .. . habeas
counsel’s omissions,... ordinarily does not go to the integrity of the proceedings, but in
effect asks for a second chance to have the merits determined favorably.”).
Mr. Vreeland also argues that the district court failed to obtain and consider the
entire state-court record before ruling on his claims. We need not decide if this is a
legitimate ground for relief under Rule 60(b) because the district court’s alternative
conclusion—that Mr. Vreeland is not entitled to Rule 60(b) relief—is not reasonably
debatable.
The district court concluded Mr. Vreeland failed to file his Rule 60 Motion within
a reasonable time after he was provided with its December 20, 2016, order dismissing the
action. His motions were not filed until June 2019, two and one-half years later. He
attacks the district court’s conclusion, arguing that (1) he did not discover the omissions
from the state-court record until February 2018, and (2) the district court did not permit
him to file his motion pro se until his attorneys withdrew from the case in May 2019. See
7

Appellate Case: 19-12

Document: 010110294302

Dak

.ed: 01/24/2020

Page: 8

COA Appl. at 29-31. But he admits that his attorneys knew or should have known the
habeas record was incomplete before the order denying habeas relief even was entered.
See, e.g., COA Appl. at 14 (stating counsel knew the state-court record was incomplete);
id. at 18 (stating counsel lied to Vreeland about having read the state-court record).2
After the district court made its decision, counsel could have filed a Rule 60(b)
motion on Mr. Vreeland’s behalf within a reasonable time, arguing that the district court
had ruled on his claims based on an incomplete record. But they did not file such a
motion, and Mr. Vreeland is bound by the actions or inactions of his counsel. See Martin
v. Mukasey, 517 F.3d 1201, 1203 (10th Cir. 2008) (“It is a longstanding principle that in
our system of representative litigation each party is deemed bound by the acts of his
lawyer-agent and is considered to have notice of all facts, notice of which can be charged
upon the attorney.” (alteration and internal quotation marks omitted)). In addition, as we
have already stated, any omission by his attorneys in either failing to obtain and cite the
entire record, or to seek reconsideration after the district court failed to do so, cannot give
rise to habeas relief. See 28 U.S.C. § 2254(i).

2 Indeed, if the state-court record constituted “newly discovered evidence,”
Mr. Vreeland’s claim would plainly have been second or successive. See Spitznas,
464 F.3d at 1216 (stating “a motion seeking leave to present newly discovered evidence
in order to advance the merits of a claim previously denied” should be treated as a second
or successive habeas petition (internal quotation marks omitted)).
8

Appellate Case: 19-12

Document: 010110294302

Dak

,ed: 01/24/2020

Page: 9

CONCLUSION
We deny a certificate of appealability (COA) and dismiss this proceeding. We
grant Mr. Vreeland’s motion to proceed in forma pauperis.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

9

Appellate Case: 19-12

Document: 010110294307

Daf

.ed: 01/24/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157
Christopher M. Wolpert
Clerk of Court

January 24,2020

Mr. Delmart E.J.M. Vreeland II
AVCF - Arkansas Valley Correctional Facility
12750 Highway 96 at Lane 13
Ordway, CO 81034
#143539
RE:

19-1244, Vreeland v. Zupan, et al
Dist/Ag docket: 1:14-CV-02175-PAB

Dear Appellant:
Enclosed is a copy the court's final order issued today in this matter.
Please contact this office if you have questions.
Sincerely,

Christopher M. Wolpert
Clerk of the Court

cc:

CMW/at

Ryan Crane

Jane K. Castro
Chief Deputy Clerk

Document: 010110345691

Appellate Case: 19-12

Date

..ed: 05/11/2020

Page: 1

UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

May 11, 2020
Christopher M. Wolpert
Clerk of Court

DELMART E.J.M. VREELAND, II,
Petitioner - Appellant,

No. 19-1244
(D.C.No. 1:14-CV-02175-PAB)
(D. Colo.)

v.

DAVID ZUPAN, et al.,
Respondents - Appellees.

ORDER

Before HARTZ, MORITZ, and CARSON, Circuit Judges.

Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Case l:14-cv-02175-PAB Document 103 Filed 07/02/19 USDC Colorado Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Civil Action No. 14-cv-02175-PAB
DELMART E. J. M. VREELAND, II,
Applicant,
v.
DAVID ZUPAN and
THE ATTORNEY GENERAL OF THE STATE OF COLORADO,
Respondents.
ORDER
This matter is before me on the “Motion for Relief from Judgment and Orders
Pursuant to Federal Rules of Civil Procedure Rule 60(b) and (d),” Docket No. 102, the
“Motion to Resolve Claim of Hostility and Bias Against Petitioner by Chief Judge Philip
A. Brimmer,” Docket No. 100, and the “Motion to Exceed Page Limits on Motion for
Relief from Judgment,” Docket No. 101, filed pro se by Applicant.
Applicant is a prisoner in the custody of the Colorado Department of Corrections.
He initiated this action by filing an Application for a Writ of Habeas Corpus Pursuant to
28 U.S.C. § 2254 challenging the validity of his criminal conviction in Case No.
04CR706 in the District Court for Douglas County, Colorado. On September 29, 2014,
pursuant to Court order, Applicant filed an Amended Application, which asserted thirtytwo claims, of which one had five subparts. The September 29 Amended Application
was the operative pleading in this action. On December 21,2015, I determined that (1)
Claims Six through Nine, Eleven through Twenty-Six, subpart (a) of Twenty-Seven,

Case l:14-cv-02175-PAB Document 103 Filed 07/02/19 USDC Colorado Page 2 of 7

Twenty-Nine and Thirty are procedurally barred from federal habeas review; (2) Claims
Four, Thirty-One, and Thirty-Two are not cognizable in a federal habeas action; and (3)
subparts (b)-(e)of Claim Twenty-Seven and Claim Twenty-Eight are unexhausted.

I

directed Respondents to file an answer that fully addressed the merits of remaining
Claims One through Three, Five, and Ten.
each remaining claim lacked merit.

In an eighty-six-page order, I found that

Docket No. 75.

I therefore denied the Application,

dismissed the action with prejudice, and found no basis to issue a certified of
appealability pursuant to 28 U.S.C. § 2253(c).
Applicant filed a Notice of Appeal.

Id.

Docket No. 77.

The United States Court of

Appeals for the Tenth Circuit (1) affirmed this Court’s denial of relief on Applicant’s Sixth
Amendment Claim and (2) denied Applicant’s certificate of appealability on his due
process and actual innocence claims, which resulted in the dismissal of the remainder
A

of the appeal.

Vreeland v. Zupan, et al., No. 16-1503 (10th Cir. Oct. 9, 2018).

Applicant petitioned the U.S. Supreme Court for certiorari review.
denied on April 15, 2019.

The petition was

See Docket No. 91.

First, I will address Applicant’s Motion to Resolve Claim of Hostility and Bias
Against Petitioner by Chief Judge Philip A. Brimmer, Docket No. 100.

Applicant does

not request that I recuse myself from this case in the Motion to Resolve.

Instead,

Applicant claims the attorneys who represented him in this case told him that I was
biased and prejudiced against him.
“excessive huge fees.”

He further claims that his attorneys charged him

I will deny the Motion to the extent Applicant is attempting to

raise a claim against his attorneys for any negligence and deception.
2

“The

Case l:14-cv-02175-PAB Document 103 Filed 07/02/19 USDC Colorado Page 3 of 7

ineffectiveness or incompetence of counsel during Federal or State collateral
postconviction proceedings shall not be a ground for relief in a proceeding arising under
section 2254.” 28 U.S.C. § 2254(i).
To the extent that Applicant is alleging that I am biased or prejudiced in this
action, 28 U.S.C. § 144 provides a procedure whereby a party to a proceeding may
request the judge before whom the matter is pending to recuse himself or herself based
upon personal bias or prejudice either against the moving party or in favor of any
adverse party. Section 144 requires the moving party to submit a timely and sufficient
affidavit of personal bias and prejudice. See Green v. Branson, 108 F.3d 1296, 1305
(10th Cir. 1997). “The affidavit must state with required particularity the identifying
facts of time, place, persons, occasion, and circumstances.” Hinman v. Rogers, 831
F.2d 937, 939 (10th Cir. 1987) (per curiam). Although a court must accept the facts
alleged in the supporting affidavit under § 144 as true, the affidavit is construed strictly
against the moving party. See Glass v. Pfeffer, 849 F.2d 1261, 1267 (10th Cir. 1988).
The moving party has a substantial burden “to demonstrate that the judge is not
impartial.” United States v. Burger, 964 F.2d 1065, 1070 (10th Cir. 1992).
Section 455(a) of Title 28 provides that a judge “shall disqualify himself in any
proceeding in which his impartiality might reasonably be questioned.” The goal of this
provision is to avoid even the appearance of partiality. See Liljeberg v. Health Servs.
Acquisition Corp., 486 U.S. 847, 860 (1988). Pursuant to § 455, a court is not required
to accept the factual allegations as true “and the test is whether a reasonable person,
knowing all the relevant facts, would harbor doubts about the judge’s impartiality.”
3

Case l:14-cv-02175-PAB Document 103 Filed 07/02/19 USDC Colorado Page 4 of 7

Glass, 849 F.2d at 1268 (internal quotation marks omitted). The standard is objective
and the inquiry is limited to outward manifestations and reasonable inferences drawn
therefrom.

See United States v. Cooley, 1 F.3d 985, 993 (10th Cir. 1993).

Applicant has not submitted a timely and sufficient affidavit of personal bias and
prejudice.

“[Bjaseless personal attacks on or suits against the judge by a party” do not

mandate recusal in a case in which the judge is not a party.
347, 351 (10th Cir. 1995).

Nichols v. Alley, 71 F.3d

Furthermore, “judicial rulings alone almost never constitute

a valid basis'for a bias or partiality motion.” Liteky v. United States, 510 U.S. 540, 555
(1994).

I find no basis for recusing myself in this case for the purpose of reviewing

Applicant’s Motion for Relief from Final Judgment.
Second, I will address the Motion for Relief from Judgment and Orders Pursuant
to Federal Rules of Civil Procedure Rule 60(b) and (d) [Docket No. 102],

In the

Preliminary Statement section of the 173-page Motion for Relief from Final Judgment,
see Docket No. 102 at 1-2, Applicant asserts that the motion is a challenge to the
integrity of the habeas corpus proceedings held in this Court. Applicant further asserts
that he is not attempting to litigate new claims or relitigate prior claims but is challenging
the integrity of his counsel and Respondents’ counsel.

Docket No. 102 at 1.

Applicant

also asserts that the Court’s “decision making process was corrupted” because
Respondents withheld requested evidence.

Id.

Finally, Applicant contends that the

Tenth Circuit’s decision-making process was also corrupted for the same reasons and
he is entitled to an evidentiary hearing on the motion.

Id. at 2.

I must construe the Motion for Relief from Judgment liberally because Applicant
4

Case l:14-cv-02175-PAB Document 103 Filed 07/02/19 USDC Colorado Page 5 of 7

is not represented by an attorney. See Haines v. Kerner, 404 U.S. 519, 520-21 (1972);
Hall v. Bellmon, 935 F.2d 1106, 1110(10th Cir. 1991). For the reasons discussed
below, I will deny the motion.
First, I must determine whether the motion is a second or successive habeas
corpus application or a true Rule 60(b) motion. See Spitznas v. Boone, 464 F.3d 1213,
1215 (10th Cir. 2006). Distinguishing between a true Rule 60(b) motion and a second
or successive habeas application turns on the “relief sought, not [the] pleading’s title.”
United States v. Nelson, 465 F.3d 1145, 1149 (10th Cir. 2006). A Rule 60(b) motion “is
a second or successive petition if it in substance or effect asserts or reasserts a federal
basis for relief from the [applicant’s] underlying conviction.” Spitznas, 464 F.3d at
1215. A Rule 60(b) motion is a true 60(b) motion if it either “challenges only a
procedural ruling of the habeas court which precluded a merits determination of the
habeas application” or “challenges a defect in the integrity of the federal habeas
proceeding, provided that such a challenge does not itself lead inextricably to a
merits-based attack on the disposition of a prior habeas petition.” Id. at 1215-16.
Applicant’s request for an evidentiary hearing to review additional evidence
allegedly not presented previously, would inextricably lead to a merits-based attack on
the disposition of the September 29, 2014 Amended Application and is successive.
Therefore, I do not have jurisdiction to consider the arguments Applicant raises in the
motion.
Even if I construed the motion as a true Rule 60(b) motion, relief under Rule
60(b) is appropriate only in extraordinary circumstances. See Massengale v.
5

Case l:14-cv-02175-PAB Document 103 Filed 07/02/19 USDC Colorado Page 6 of 7

Oklahoma Bd. of Examiners in Optometry, 30 F.3d 1325, 1330 (10th Cir. 1994). The
sort of extraordinary circumstances sufficient to justify relief under Rule 60(b) “will rarely
occur in the habeas context.” Gonzalez v. Crosby, 545 U.S. 524, 535 (2005).
Furthermore, if the finality of judgments is to be preserved a strict interpretation of Rule
60(b) is required. Id. Rule 60(b) contains the requirements that the motion “be made
within a reasonable time” and that open-ended grounds of relief (excusable neglect,
newly discovered evidence, and fraud) are asserted within a one-year deadline.
Gonzalez, 545 U.S. at 535.
Here, Applicant was sent a copy of the December 20, 2016 Order dismissing the
action. See Display Receipt for Docket No. 75. It is not reasonable that Applicant
waited until now to raise his claims. Upon consideration of the Motion for Relief from
Judgment and the entire file, I find that Applicant fails to demonstrate any extraordinary
circumstances that would justify relief in this action.
Nonetheless, I will deny the Motion for Relief from Judgment for lack of
jurisdiction to consider the arguments raised in the Motion. Accordingly, it is
ORDERED that Applicant’s Motion to Resolve Claim of Hostility and Bias Against
Petitioner by Chief Judge Philp A. Brimmer, Docket No. 100, is DENIED.

It is further

ORDERED that Applicant’s Motion for Relief from Judgment and Orders
Pursuant to Fed. R. Civ. P. 60(b) and (d), Docket No. 102, is DENIED for lack of
jurisdiction. It is further
ORDERED that Applicant’s Motion to Exceed Page Limits on Motion for Relief
from Judgment, Docket No. 101, is DENIED as moot.
6

Case l:14-cv-02175-PAB Document 103 Filed 07/02/19 USDC Colorado Page 7 of 7

DATED July 2, 2019.
BY THE COURT:
s/Philip A. Brimmer__________
PHILIP A. BRIMMER
Chief United States District Judge

7

Additional material
from this filing is
available in the
Clerk's Office.

